 OFFICE OF AUDIT
 REGION 9
 Los Angeles, CA




         Innotion Enterprises, Inc., Las Vegas, NV

      Single Family REO Contract Administration




2012-LA-1010                            SEPTEMBER 12, 2012
                                                              Issue Date: September 12, 2012

                                                              Audit Report Number: 2012-LA-1010




TO:            Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU



FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region,
               9DGA


SUBJECT:       Innotion Enterprises, Inc., Las Vegas, NV, Did Not Always Comply With Its
               REO Contract Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of Innotion Enterprises, Inc.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(213) 534-2471.
                                            September 12, 2012
                                            Innotion Enterprises, Inc., Las Vegas, NV, Did Not Always
                                            Comply With Its REO Contract Requirements




Highlights
Audit Report 2012-LA-1010



 What We Audited and Why                     What We Found

We audited the U.S. Department of           Innotion did not always perform property protection
Housing and Urban Development               and preservation services according to contract
(HUD) real estate-owned (REO)               requirements. Specifically, 38 of 96 (39.6 percent) of
Management and Marketing (M&M) III          all properties selected materially failed our review
program at Innotion Enterprises, Inc., to   because homes were not secured or properly
determine whether Innotion performed        maintained. As a result of Innotion not always
property preservation and protection        following HUD’s and its own policies and procedures,
services according to contract              compounded by its inadequate quality control, HUD
requirements. The review was part of        did not have assurance that Innotion maintained REO
our efforts to improve the integrity of     homes at the high standard of care required in the
the single-family insurance programs.       performance work statement. HUD paid Innotion
We selected Innotion’s Las Vegas, NV,       $11,210 for monthly services for 38 homes that did not
branch based on the size and scope of       reflect a high standard of care. If Innotion does not
its contract with HUD and because our       implement adequate controls and procedures to address
previous auditability survey in the Las     property protection and preservation deficiencies,
Vegas, NV, area revealed poor property      HUD will spend approximately $1 million for
management.                                 inadequate services over the next year.

 What We Recommend

We recommend that HUD’s Deputy
Assistant Secretary for Single Family
Housing require Innotion to develop
and implement adequate procedures and
controls, including improving its quality
control inspections, to ensure that all
units meet HUD’s REO contract
requirements and prevent more than $1
million in program funds from being
spent over the next year on units that
are in material noncompliance with the
standards.
                            TABLE OF CONTENTS

Background and Objective                                               3

Results of Audit
      Finding: Innotion Did Not Always Perform Property Preservation   4
      and Protection Services According to Contract Requirements

Scope and Methodology                                                  10

Internal Controls                                                      13

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use   14
B.    Auditee Comments and OIG’s Evaluation                            15
C.    Criteria                                                         21
D.    Property Deficiencies                                            24




                                            2
                       BACKGROUND AND OBJECTIVE

The Federal Housing Administration (FHA), an organizational unit within the U.S. Department
of Housing and Urban Development (HUD), administers the single-family mortgage insurance
program. FHA insures approved lenders against the risk of loss on mortgages obtained with
FHA financing. In the event of a default on an FHA-insured loan, the lender acquires title to the
property by foreclosure, a deed-in-lieu of foreclosure, or other acquisition method; files a claim
for insurance benefits; and conveys the property to HUD. As a result of acquisitions through the
mortgage insurance program and other programs, HUD needs to manage and sell a sizable
inventory of single-family homes in a manner that promotes home ownership, preserves
communities, and maximizes return to the FHA insurance fund.

Since 1999, HUD has outsourced the disposition of its real estate-owned (REO) inventory to
management and marketing (M&M) contractors. To ensure the continued success of its
disposition program and to further capitalize on the private sector’s disposition expertise, in
2007, HUD conducted extensive market research on industry best practices surrounding the REO
asset disposition process to structure the third generation of the contracting program known as
M&M III. Based on market research results for M&M III, HUD developed a disposition
structure for the management and marketing of REO inventory that will streamline its operations,
capitalize on the expertise of its potential contractors, and provide flexibility to meet changing
market conditions in the REO industry.

On January 16, 1997, Innotion Enterprises, Inc., incorporated its business. HUD selected
Innotion as its field service manager to cover four contract areas. However, our audit objective
covers only one contract area, which includes Arizona, Idaho, and Nevada, with a contract
effective date of July 1, 2011. HUD has identified six primary objectives for its field service
managers. They are to ensure that (1) FHA-insured properties are maintained in a manner that
preserves communities, (2) HUD has real-time access to all property-related information, (3)
properties are secured and safe from hazardous conditions, (4) property values are preserved, (5)
properties are maintained in a manner that reflects a high standard of care, and (6) there is a high
level of customer satisfaction with HUD’s property disposition program. For the Arizona, Idaho,
and Nevada area, HUD expended more than $8.7 million from July 1, 2011, to June 30, 2012 on
Innotion’s field service manager contract. The initial term of HUD’s contract with Innotion
ended on May 31, 2012. HUD exercised its first of two option years, resulting in extension of
the contract through May 31, 2013. HUD has an additional one year option to extend the
contract through May 31, 2014.

The overall objective was to determine whether Innotion performed property preservation and
protection services according to contract requirements.




                                                 3
                                       RESULTS OF AUDIT


Finding: Innotion Did Not Always Perform Property Preservation and
Protection Services According to Contract Requirements

Innotion did not always perform property preservation and protection services according to
contract requirements. Specifically, Innotion had material deficiencies in 38 of the 96 (39.6
percent) homes reviewed and performed at least one late inspection in 10 of 20 (50 percent)
home files reviewed. The deficiencies occurred because the inspectors did not always follow
Innotion’s policies and Innotion’s quality control reviews did not always capture findings or
ensure that findings were adequately resolved. As a result, HUD had no assurance that Innotion
maintained REO homes at the high standard of care required in the performance work statement.
HUD paid Innotion $11,210 in monthly services costs for 38 homes that did not reflect a high
standard of care. If Innotion does not implement adequate controls and procedures to address
property protection and preservation deficiencies, HUD will spend approximately $1 million for
inadequate services over the next year.



    Innotion Did Not Maintain
    Properties That Reflected a
    High Standard of Care

                  According to section 1.6 of the performance work statement (contract), one of the
                  six primary objectives of the field service manager is to ensure that the contractor
                  maintains properties in a manner that reflects a high standard of care. Innotion
                  generally had policies in place to meet this primary objective. However, our
                  review of 96 REO homes identified 38 (39.6 percent) with material deficiencies. 1
                  These deficiencies included properties not secured, properties not in ready-to-
                  show condition, landscaping not adequately maintained, properties not free of
                  debris and health and safety hazards, and unallowable boarding.

                  Innotion is required to have a quality control plan that will ensure that all aspects of
                  the performance work statement are performed completely and appropriately, and
                  contain a plan for corrective action when deficiencies or insufficient performance are
                  identified. The quality control plan is designed and implemented to result in quality
                  contract performance. Innotion has a quality control plan in place where almost
                  every home receives a quality control review after the initial cleaning is completed


1
  Using auditor judgment, we defined a material deficiency as (1) the property was unsecured as defined by the
statement of work, allowing a person to enter any part of the property; (2) two or more deficiencies noted during the
review; or (3) The deficiency was identified in a previous asset manager or field service manager inspection and not
fixed as determined through a review of HUD’s P260 documentation.


                                                          4
                    by the contractor. In addition, homes remaining in inventory are subject to random
                    inspections.

                    Although Innotion’s written policies and procedures appeared adequate, its
                    inspectors did not always ensure that properties reflected a high standard of care.
                    Innotion also provided training to inspectors; however, the inspectors failed to
                    always follow policies and procedures. Also, Innotion’s quality control reviews
                    did not always capture findings or ensure that findings were adequately resolved.
                    We reviewed 22 quality control reviews from the 38 properties that materially
                    failed our onsite review. Of the 22 quality control inspections, 12 were not
                    sufficient to capture all findings. Innotion also incorrectly noted that an issue had
                    been resolved in 3 of the 22 quality control inspections.

                    For example, we performed an initial site visit regarding case number 022-203292
                    on March 16, 2012. During our visit, we noted weeds at the home, with some
                    approximately 4 feet tall. HUD’s Mortgagee Letter 2010-18 requires Innotion to
                    cut grass and weeds to the edge of the property line and trim around foundations,
                    bushes, trees, and planting beds. While reviewing documentation in HUD’s P260
                    system 2, where Innotion uploads its biweekly reports and pictures, we noted
                    pictures of the inspector pulling one weed 13 days before our initial review. We
                    returned to the property on April 19, 2012, to determine whether Innotion had
                    addressed the weeds in either of the two inspections performed between our initial
                    and final reviews. Innotion had not performed landscaping services, leaving
                    weeds significantly overgrown. During one inspection, Innotion’s subcontracted
                    inspector appeared to have selectively uploaded pictures into HUD’s P260 system
                    that did not show the landscape issues. The other inspection completed between
                    our reviews noted that there was a showing and no work had been completed.
                    However, the inspector photographed the house next to the subject property, and
                    the weeds at the subject home were high enough that the inspector should have
                    identified the landscaping needs.




                             View of weeds in front yard on first visit    View of weeds in the front yard on second visit




2
    Refer to the criteria section of the report for a description of HUD’s P260 system.


                                                                    5
       View of weeds in back yard on second visit


In another example, we performed a site visit regarding case number 023-227969.
When Innotion performed its initial services on February 28, 2012, it identified a
broken handrail and took pictures in a way to indicate that the inspector had fixed
the broken railing. On March 13, 2012, we performed our initial review. During
our visit, we noted that someone had placed the boards on top of the secured legs
of the railing without screws or nails to hold them in place. To avoid injury to
potential users, we removed the top board and set it on the ground. Innotion
performed one quality control inspection and three field service manager
inspections between our initial review and our return visit on April 18, 2012.
Innotion’s quality control inspector identified the deficient handrail and closed the
finding on March 26, 2012. However, when we returned to the property, we
noted that someone placed the board back on the legs without securing it. This
condition posed a safety risk to any potential user of the handrail.




       Handrails not secured                          Handrail missing screws


As a result of the issues discussed above, HUD had no assurance that Innotion
maintained HUD REO homes at the high standard of care required in the
performance work statement. HUD paid Innotion $11,210 for monthly services
for 38 homes that did not reflect a high standard of care. If Innotion does not
implement adequate controls and procedures to address property protection and
preservation deficiencies, HUD will spend approximately $1 million for




                                           6
                                   inadequate services over the next year. 3 For a detailed listing of property
                                   deficiencies, see appendix D. The following table summarizes the deficiencies
                                   noted at all 96 properties:




                                         Number and type of deficiencies
                              35


                                    30
                              30
     Number of deficiencies




                              25

                                            21
                              20

                                                   16
                              15
                                                           13


                              10
                                                                    7       7

                               5
                                                                                    2
                                                                                           1       1
                               0




3
  Refer to the Scope and Methodology section of the report for a detailed calculation of the estimated inadequate
services over the next year.


                                                                   7
    Innotion Did Not Always
    Complete Inspections in a
    Timely Manner


                 According to the performance work statement (contract), section 5.2.3.2 Routine
                 Inspections, Innotion must routinely inspect and take all actions necessary to
                 ensure that (1) properties are free from health and safety hazards and debris,
                 refuse, and personal property, (2) corrective actions are taken on broken windows
                 and doors, (3) properties are properly secured, (4) winterization is maintained, and
                 (5) active leaks are promptly addressed. At a minimum, Innotion must inspect the
                 property once every 2 weeks and report data on the field service manager property
                 inspection form. Based on geography, climate, age, and community needs, some
                 properties may require more frequent inspections and a higher level of
                 maintenance than others. Upon HUD’s request, Innotion must provide within 2
                 business days the routine inspection forms used by the contractor to perform the
                 inspections.

                 We examined the inspections uploaded into HUD’s P260 system for 20 case files
                 to ensure that Innotion performed biweekly inspections in a timely manner. 4

                 Of the 130 inspections reviewed, Innotion did not conduct 18 biweekly
                 inspections in a timely manner. Of the 18 late inspections, 9 were the first
                 inspections after Innotion completed the initial services and moved the property
                 into ready-to-show condition. Since Innotion did not comply with the contract
                 regarding the late inspections, HUD paid for monthly services that Innotion did
                 not complete in a timely manner. HUD’s government technical representative
                 identified this issue in a separate review and had started monitoring Innotion’s
                 timeliness of inspections.

    Conclusion

                 Since Innotion did not always follow its policies and procedures and had
                 inadequate quality control reviews, HUD did not have assurance that Innotion
                 maintained HUD REO homes at the high standard of care required in the
                 performance work statement. HUD paid Innotion $11,210 for monthly services
                 for 38 homes that did not reflect a high standard of care. If Innotion does not
                 implement adequate controls and procedures to address property protection and
                 preservation deficiencies, HUD will spend approximately $1 million for
                 inadequate services over the next year.




4
  Using auditor judgment, we determined that inspections completed 5 or more days later than the 2-week
requirement indicated a material deficiency in timeliness.


                                                        8
Recommendations

          We recommend that the Deputy Assistant Secretary for Single Family Housing:

          1A.     Require Innotion to develop and implement adequate procedures and
                  controls, including improving its quality control inspections, to ensure that
                  all units meet HUD’s REO contract requirements and prevent $1,035,780
                  in program funds from being spent over the next year on units that are in
                  material noncompliance with the performance work statement standards.

          1B.     Require Innotion to reimburse HUD $11,210 for the 38 homes that
                  materially failed to meet the required property preservation and protection
                  services standards (see appendix D).

          1C.     Require Innotion to certify that the violations noted in the 38 materially
                  failed properties have been corrected for any properties that have not
                  closed.

          1D.     Continue to monitor Innotion to ensure that it performs biweekly
                  inspections in a timely manner.




                                            9
                         SCOPE AND METHODOLOGY

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

Our audit period covered July 1 to December 31, 2011, but was expanded when necessary. We
selected Innotion because it covers four contract areas across the Nation. However, based on the
results of a previous review of HUD REO properties in the Las Vegas, NV, area, we reviewed
only the Arizona, Idaho, and Nevada contract area. From July 1, 2011, to June 30, 2012, HUD
expended more than $8.7 million for the Innotion field service manager contract in the Arizona,
Idaho, and Nevada contract area. We conducted our fieldwork at Innotion’s Las Vegas branch
office between January and June 2012.

To accomplish our objective, we

   •   Reviewed the Management and Marketing Support Services: Field Service Manager
       Performance Work Statement;

   •   Reviewed HUD regulations and reference materials for management and marketing
       support services;

   •   Reviewed 20 randomly selected property files;

   •   Performed site visits to 96 randomly selected HUD REO properties;

   •   Interviewed appropriate staff from HUD, Innotion, and Innotion’s subcontractors;

   •   Reviewed Innotion’s property management and quality control plans; and

   •   Reviewed 22 quality control reviews for properties that we determined materially failed
       our site reviews.

We randomly selected 20 property files using a nonstatistical sample from a universe of 912.
The properties were pulled from HUD’s P260 system, an Internet-based system that serves as the
primary system of record for all REO case management transactions. We selected the sample of
units without conscious bias; that is, without a special reason for including or excluding items.
This sampling process does not consist of sampling units selected in a careless manner; rather,
units are selected in a way the auditor expects to be representative of the population. Since the
nonstatistical sample is not the same as a statistical sample, precision at a given confidence level
cannot be determined. We did not project our findings to the population using the sample.



                                                10
We randomly selected 96 properties for onsite reviews from a universe of 722 5. We pulled the
properties from HUD’s P260 system. Of the 96 REO properties reviewed, 39.6 percent had a
problem that was material enough to negate the value of the maintenance services for which
Innotion had been hired. Given the laws of probability, all randomly selected samples are
subject to a margin of error or “statistical variance,” which must be accounted for. The status of
HUD-owned properties during March of 2012 was used as a representative slice in time to
sample the simultaneous status of properties while under the care of Innotion. To acquire an
accurate sample across the three-State area, we used a cluster sample in which the area was
divided into large zones, some of which were randomly selected for sampling. To achieve this
selection, a rectangle was drawn around the three States in question (Arizona, Idaho, and
Nevada), and a computer program was used to divide it into 64 zones or “clusters,” based on
longitude and latitude, with equivalent numbers of properties in each cluster. Because the
boundaries between clusters landed at arbitrary points, with no correlation to city limits or other
geographic boundaries, the clusters often included a heterogeneous mix of urban, rural, and other
features of the properties. From these 64 clusters, a sample of 12 clusters was randomly selected
across the States of Idaho, Nevada, and Arizona, and we sampled 8 randomly selected properties
from each cluster to evaluate the physical status of properties at a given point in time.

This process yielded a total of 96 properties in our sample. While a sample count in the mid-to-
high 60s might have been sufficient in a completely random sample, we increased the sample
size to 96 to offset any increase in the margin of error (known as the “design effect”) that might
result from using a cluster sample. The final margin of error (or “variance”) was designed to
accommodate the fact that a cluster sample is taken from samples, which are grouped together in
randomly selected zones.

We used a computer program written in SAS®, a widely accepted platform for statistical
calculations, which was specifically designed to evaluate cluster samples, to project the overall
percentage of properties with problems based on the audit results.

Based on our cluster sample of 12 groups of 8 properties each, randomly selected across three
States, we can say the following:

Within the sample, we found an error rate of 39.58 percent. Applying the Clopper-Pearson
method (binomial distribution) of accounting for the margin of error, we can say—with a one-
sided confidence interval of 95 percent—that at least 28.68 percent of the properties under
contracted maintenance had similar deficiencies at a given point in time.

If this practice continues, it will be costly to HUD. At 1,020 services per month (see table), or
12,240 per year, and a contract value of $295 per month 6, we can say—with a one-sided
confidence level of 95 percent—that if Innotion is allowed to continue in this fashion,
approximately $1 million will be paid over the next 12 months for services that do not fully meet
5
  The universes differ since the data was pulled from different dates. The universe of 722 was pulled from REO
inventory data as of March 6, 2012, while the universe of 912 was from REO inventory data as of January 24, 2012.
HUD’s REO inventory is constantly changing due to the acquisition and sale of homes.
6
  The contracted amount of $295 per month increased to $303.85 effective June 1, 2012 to May 31, 2013. Since our
property site visits occurred in March 2012, we used the more conservative amount of $295 per month in our
calculations.


                                                       11
HUD requirements. The $1 million in funds represents funds that could be put to better use
(FTBPTBU), which are computed below:

                                                        $FTBPTBU

        or

28.68% ⨉ (12⨉1,020 months) ⨉ $295.00/month = $1,035,780 FTBPTBU



                                            Properties under
                                                contract
                                         July (2011)              289
                                         August                 1,777
                                         September              1,690
                                         October                1,442
                                         November               1,234
                                         December                 971
                                         January (2012)           685
                                         February                 441
                                         March                    784
                                         April                    889
                                         Total                 10,202
                                         Average 7            1,020.2




7
 A ten month period was used since the contract became effective July 1, 2012 and only 10 months of data was
available at the time of our calculations in May 2012.



                                                       12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Controls over property protection and preservation services.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

               •      Innotion lacked sufficient procedures and controls to ensure that REO
                      properties were maintained in accordance with the performance work
                      statement (finding).

               •      Innotion lacked sufficient procedures and controls to ensure that biweekly
                      inspections were performed in a timely manner (finding).




                                                 13
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

              Recommendation                                 Funds to be put
                                     Ineligible 1/
                  number                                     to better use 2/
                          1A                                      $1,035,780
                          1B                $11,210


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if Innotion develops and implements
     adequate procedures and controls, it will ensure that all units meet HUD’s REO contract
     requirements and will prevent more than $1 million in program funds from being spent
     over the next 12 months on units that are in material noncompliance with the standards
     (see the Scope and Methodology section of the report).




                                            14
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

OIG Evaluation                                  Auditee Comments




Comment 1




Comment 2




Comment 3




             *Note: Innotion provided additional attachments with its response that we did not include in the
                    report; however, they are available upon request.



                                                   15
Comment 4




Comment 5




            16
Comment 6




Comment 7




Comment 8




Comment 9




            17
OIG Evaluation of Auditee Comments


Comment 1   We reviewed Innotion’s written response including all supporting documentation.
            Based on the response, we made minor changes to the report. However, the
            overall conclusions of the report remain the same. In addition to the auditee
            response in appendix B of this report, the auditee also provided reports, photos,
            and other documentation with its response. We did not include this in the report
            because it was too voluminous; however, it is available upon request.

Comment 2   Based on our audit work, we do not agree that Innotion generally complied with
            its REO contract requirements. As a result, the wording in the title remains the
            same.

Comment 3   The auditability survey process produced an internal document used to identify
            possible risks in the HUD REO program and was not a formal audit that followed
            the standard audit process. The audit of Innotion was one of several that were
            suggested based on the risks identified in the auditability survey.

Comment 4   We understand there are various circumstances that can result in an unsecured
            property and we took these circumstances into consideration. We also used a
            conservative approach when identifying deficiencies. For example, we went to
            properties twice if the property did not close before our second review. For
            properties that we visited twice, we generally only considered the property
            unsecured if it was unsecured during both site visits, unless other evidence
            suggested Innotion was at fault. In one instance, an Innotion quality control
            inspector was at the property earlier on the same day of our review and a door
            was left unsecured. We also reviewed documentation in P260, including
            uploaded photographs, to ensure that photographs did not conflict with our audit
            conclusions. We also interviewed and observed field service managers, and
            interviewed the quality control inspectors. When we performed our observations
            of the field service managers, we noted the field service manager inspectors did
            not check windows at every home. In addition, a quality control inspector stated
            that he did not always verify that field service manager inspectors secured
            windows. In addition, some of the windows we noted did not have a locking
            mechanism in place. We did not remove any unsecured property findings from
            the audit report.

Comment 5   We understand there are various circumstances that can result in properties not in
            broom swept condition and we took these circumstances into consideration. We
            also used a conservative approach when identifying deficiencies, For example, we
            went to properties twice if the property did not close before our review. For
            properties that we visited twice, we only considered the property not broom swept
            if it was in similar condition during both site visits, unless other evidence
            suggested Innotion was at fault such as time between inspections. We noted one
            instance where the property was not broom swept even though the field service



                                            18
            manager inspector inspected the property one day before our site visit. We
            reviewed documentation in P260, including uploaded photographs, to ensure that
            it did not conflict with our audit conclusions. We also interviewed and observed
            field service managers, and interviewed the quality control inspectors. In
            addition, when we performed our observations of the field service managers, we
            noted a field service manager that did not note or resolve various items such as a
            dirty entry way, debris in the hallway, and roaches on the floor. We did not
            remove any broom swept condition findings from the report.

Comment 6   We understand there are various circumstances that can result in properties with
            landscape not maintained and we took these circumstances into consideration.
            We also used a conservative approach when identifying deficiencies. For
            example, we went to properties twice if the property did not close before our
            review. For properties that we visited twice, we only considered the property not
            landscaped if it was in similar or worse condition during both site visits, unless
            other evidence suggested Innotion was at fault such as time between inspections.
            We noted one property where the field service manager was at the property six
            days before our review and it appeared landscaping duties were not performed.
            We also reviewed documentation in P260, including uploaded photographs, to
            ensure that it did not conflict with our audit conclusions. We also, interviewed
            and observed field service managers, and interviewed the quality control
            inspectors. There was one property where the field service manager did not
            document in P260 that it completed landscaping duties for three consecutive
            inspections before our review. During our site visit, the landscaping for this
            property was not maintained. We did not remove any landscape findings from
            the audit report.

Comment 7   We reviewed the attachments concerning timeliness of inspections and revised
            our results accordingly. We acknowledge that Innotion is taking steps to improve
            the timeliness of its inspections. Any corrective actions can be submitted to HUD
            for review during the audit resolution process.

Comment 8   We acknowledge that Innotion has a quality control process in place. However,
            the quality control inspectors allowed property deficiencies to occur. We are
            encouraged Innotion is continually striving to improve its quality control
            inspections. Any changes that Innotion makes to its quality control program to
            capture deficiencies should be submitted to HUD during the audit resolution
            process.

Comment 9   After reviewing Innotion’s attachment detailing its rebuttal of HUD OIG’s
            property reviews, we removed the leak noted in case file 023-308079. Although
            we removed this deficiency, the property remained as material fail due to the
            unsecured property finding. The leak noted in case file 023-308079 is the only
            revision to the table of property deficiencies in Appendix D. . The evidence
            provided by Innotion was not sufficient to clear the remaining findings. Our
            conclusions were based on several methods and sources of information as



                                            19
specified in the scope and methodology section of this audit report. This included
property site visits, interviews, file reviews, and data from the P260 system. We
did not rely solely on forms or photos taken by the field service manager or asset
managers. We also had concerns with some of the data and photos, including
photos taken at advantageous angles. Based on the results of our audit work, we
do not agree that Innotion generally complied with its REO contract
requirements. As a result, the audit report title remains the same. We held an exit
conference with Innotion to discuss the audit report. Since only minor changes
were made to the audit report, we do not believe an additional formal meeting is
warranted . However, we notified Innotion of the minor changes before report
issuance.




                                20
Appendix C

                                          CRITERIA

Performance Work Statement

1.6 Purpose and Objectives

HUD has identified six primary objectives for its Field Service Managers. They are to ensure
that:
    • FHA insured properties are maintained in a manner that preserves communities;
    • HUD has real time access to all property related information;
    • Properties are secured and safe from hazardous conditions;
    • Property values are preserved;
    • Properties are maintained in a manner that reflects a high standard of care;
    • There is a high level of customer satisfaction with HUD‘s property disposition program.

2.2 Definitions

Secured Properties – a property where all windows, doors and openings are locked, boarded (where
authorized), or otherwise secured to prevent unauthorized entrance by person or animal into any
portion of the dwelling, including exterior entrances to crawl spaces, and any other structures on the
property, e.g. garages and sheds.

3.1.3 P260

P260 is an Internet based system that will serve as the primary system of record for all REO case
management transactions. This system will assign each HUD-owned property for Contractors to
track the disposition activity from conveyance to sale.

5.1.7.1 Quality Control Plan

The Contractor shall update, maintain, and implement a comprehensive quality control plan. The
Contractor’s quality control plan will ensure that all aspects of this performance work statement, in
accordance with the performance standards listed herein, are performed completely and
appropriately, and will contain a plan for corrective action when deficiencies or insufficient
performance are identified. The quality control plan will be designed and implemented to result in
quality and timely contract performance.




                                                 21
5.1.8 Property Management Plan

The Contractor shall develop and implement a comprehensive Property Management Plan (PMP)
that fully describes how the Contractor intends to meet or exceed the performance objectives of this
PWS [performance work statement]. The PMP shall address, at a minimum, the methodology
and/or standards for:
    • Maintenance and level of care;
    • Conducting and uploading inspection data into P260;
    • Validating work performed at a satisfactory level;
    • Subcontracting control and oversight;
    • Emergency response;
    • Utilizing construction/improvement cost estimating application;
    • Ensuring compliance with local and state laws and regulations regarding evictions;
         vacancies and any other property related compliance issues;
    • Servicing properties across geographic areas and in varying ranges of property value.

5.2.2.1.2.1 Health and Safety Hazards and Emergency Repairs:

If the inspection identifies any health and safety conditions, or there is a need for any emergency
repairs the contractor shall remedy those conditions within 1 day of the inspection and update P260
with work orders and before and after photographs within 2 days of completion of the remedial
action.

5.2.2.2 Initial Securing

Concurrent with the completion of Parts I and II of the HUD Property Inspection Report, the
Contractor shall ensure that all properties conveyed to HUD are properly secured against
unauthorized entry. The Contractor shall perform the initial securing services and routine
inspections every two weeks.

5.2.2.3.3 Repair Broken Windows and Doors

Repair all broken doors and replace broken windows unless the property is in an approved boarding
area or as directed by the GTR [government technical representative]. Approved boarding areas are
listed in Mortgagee Letter 2002-10. Unless otherwise directed by the GTR, if properties are
conveyed to HUD with boarding but are not located in approved boarding areas, then the Contractor
shall remove the boarding, repair any broken doors and replace broken windows.

5.2.2.3.5 Winterization

The Contractor shall perform winterization of all operating systems and equipment including, but
not limited to, shutting water off for external spigots and filling internal water systems with anti-
freeze in accordance with the requirements of Mortgagee Letters 2002-10, 2003-05 or any
subsequent policy directives.



                                                  22
5.2.2.3.6 Prevent Further Moisture Damage

Contractor must stop active leaks that may cause deterioration of the property or pose an imminent
health or safety hazard.

5.2.2.3.7 Install Sign-In Sheets

Contractor must place and maintain a sign-in sheet in the property. A separate sign in sheet will be
required in each unit of a multi unit property. The Contractor and all Subcontractors and workmen
shall sign-in each time they enter the property.

5.2.3.1 Ready to Show Condition

Prior to the Asset Manager listing any HUD-owned property for sale, the Contractor shall ensure
that it is in Ready to Show Condition which means the property is free of debris, visible
insect/rodent infestations and health and safety hazards. All cabinets, refrigerators, freezers, counter
tops, and windows must have been wiped clean and the house must be free of bad smells. All floors
and carpets must be clean. All repairs required to correct safety hazards and any approved repairs to
be done prior to listing the property must be completed in order for the house to be in ready to show
condition. The yard must be free of trash and debris. The grass must be cut, bushes trimmed and
holes patched, and or properly secured to protect the public. Swimming pools and wells must be
properly secured to protect the public. The Contractor shall also ensure that the property remain in
the ready to show condition until sold.

5.2.3.2 Routine Inspections

The Contractor shall routinely inspect and take all actions necessary to ensure that properties are
free from health and safety hazards, free of debris, refuse, and personal property, that corrective
actions are taken on broken windows and doors, that properties are properly secured, that
winterization is maintained, and active leaks are promptly addressed. At a minimum, the Contractor
shall inspect the property once every two weeks and report data on FSM Property Inspection Form.
Based on geography, climate, age and community needs, some properties may require more
frequent inspections and a higher level of maintenance than others. Upon HUD‘s request, the
Contractor must provide within 2 business days the routine inspection forms used by the Contractor
to perform the inspections.




                                                  23
Appendix D

                                                         PROPERTY DEFICIENCIES




                                                                                                                              Not in broom-swept condition

                                                                                                                                                              Required signs not posted

                                                                                                                                                                                          Not boarded and secured
                                                                                                  Inspector did not sign in




                                                                                                                                                                                                                                           Property not winterized
                                                         Debris & other hazards




                                                                                                                                                                                                                    Unallowable boarding
                                      Landscape issues




                                                                                                                                                                                                                                                                     No issues/passed




                                                                                                                                                                                                                                                                                                                     Ineligible funds 8
                                                                                  Exposed wires
                Case number




                                                                                                                                                                                                                                                                                        Material fail

                                                                                                                                                                                                                                                                                                        Minor fail
                              State




    022-186880                AZ      X                  X                                                                                                                                X                                                                                             X                                 $295
    022-194702                AZ                                                                                                                                                          X                                                                                             X                                 $295
    022-201080                AZ                                                                                                                                                                                                                                     X
    022-153028                AZ                         X                                                                                                                                                                                                                                              X
    022-167004                AZ                                                                                                                                                                                                                                     X
    022-181234                AZ                                                                                                                                                          X                                                                                             X                                 $295
    022-183545                AZ                                                                                              X                                                           X                         X                                                                   X                                 $295
    022-186160                AZ      X                  X                                                                                                                                                                                                                              X                                 $295
    023-381607                AZ                                                                                                                                                          X                                                                                             X                                 $295
    023-174371                AZ      X                  X                        X                                           X                                                           X                                                                                             X                                 $295
    023-242608                AZ      X                                                                                                                                                   X                                                                                             X                                 $295
    023-250565                AZ                                                                                              X                                                                                                                                                         X                                 $295
    022-199042                AZ      X                                                                                                                                                                                                                                                                 X
    022-203107                AZ                                                                                                                                                                                                                                     X
    022-203292                AZ      X                                                                                                                                                                                                                                                 X                                 $295
    022-183376                AZ      X                                                                                                                                                   X                                                                                             X                                 $295
    023-327874                AZ      X                                                                                                                                                                                                                                                                 X
    023-204277                AZ                                                                                              X                                                           X                                                                                             X                                 $295
    023-222046                AZ                                                                                                                                                                                                                                     X


8
    Refer to Scope and Methodology section of the report for a detailed description of ineligible funds.


                                                                                                                                                             24
                                                                                                                      Not in broom-swept condition


                                                                                                                                                          Required signs not posted

                                                                                                                                                                                      Not boarded and secured
                                                                                          Inspector did not sign in




                                                                                                                                                                                                                                       Property not winterized
                                                 Debris & other hazards




                                                                                                                                                                                                                Unallowable boarding
                              Landscape issues




                                                                                                                                                                                                                                                                 No issues/passed




                                                                                                                                                                                                                                                                                                                 Ineligible funds
                                                                          Exposed wires
        Case number




                                                                                                                                                                                                                                                                                    Material fail

                                                                                                                                                                                                                                                                                                    Minor fail
                      State




023-001192            AZ                                                                                                                                                                                                                                         X
023-273282            AZ                                                                                                                                                                                                                                         X
023-337220            AZ                                                                                                                                                                                                                                         X
023-382843            AZ      X                                                                                                                                                       X                                                                                                             X
023-213233            AZ                                                                                                                                                                                                                                         X
023-193264            AZ                         X                        X                                                                                                                                                                                                                         X
023-270991            AZ                                                                                                                                                                                                                                         X
023-245265            AZ                                                                                                                                                                                                                                         X
023-169370            AZ                                                                                                                                                              X                                                                                             X                            $295
023-227969            AZ                         X                        X                                           X                                                               X                                                                                             X                            $295
023-309428            AZ                         X                                                                                                                                                                                                                                                  X
023-270203            AZ                                                                                                                                                                                                                                         X
023-221388            AZ                                                                  X                           X                                                                                                                                                                             X
023-286524            AZ                                                                                                                                                              X                                                                                             X                            $295
023-348124            AZ                                                                                                                                                              X                                                                                             X                            $295
023-266430            AZ                                                                                                                                                              X                                                                                             X                            $295
023-273186            AZ      X                                                                                       X                                                                                                                                                             X                            $295
023-383519            AZ                                                                                                                                                                                                                                         X
023-305881            AZ                                                                  X                                                                                                                                                                                                         X
023-266155            AZ      X                                                                                                                                                       X                                                                                             X                            $295
023-105621            AZ                                                                                                                                                                                                                                         X
023-422215            AZ                                                                                                                                                              X                                                                                             X                              295
023-208091            AZ                                                                                                                                                                                                                                         X
023-245205            AZ                                                                                              X                                                                                                                                                                             X
023-308079            AZ                         X                                                                                                                                    X                                                X                                            X                            $295
023-275179            AZ                                                                                                                                                                                                                                         X
023-318143            AZ                                                                                                                                                                                                                                         X
023-240353            AZ                         X                                                                                                                                                                                                                                                  X
023-368328            AZ                                                                                                                                                                                                                                         X
332-474261            NV                                                                                                                                                              X                                                                                                             X



                                                                                                                                                     25
                                                                                                                      Required signs not posted

                                                                                                                                                   Not boarded and secured
                                                                                          Inspector did not sign in




                                                                                                                                                                                                    Property not winterized
                                                 Debris & other hazards




                                                                                                                                                                             Unallowable boarding
                              Landscape issues




                                                                                                                                                                                                                              No issues/passed




                                                                                                                                                                                                                                                                              Ineligible funds
                                                                          Exposed wires
        Case number




                                                                                                                                                                                                                                                 Material fail

                                                                                                                                                                                                                                                                 Minor fail
                      State




332-453878            NV                                                                                                                                                                                                      X
332-465339            NV                                                                                                                                                     X                                                                                   X
332-494509            NV                                                                                                                                                                                                      X
332-448441            NV                                                                                                                                                                                                      X
332-459129            NV                                                                                                                                                                                                      X
332-479282            NV                                                                                                                                                                                                      X
332-497471            NV                                                                                                                                                                                                      X
332-436984            NV                                                                                                                                                                                                      X
332-364700            NV                                                                                                                                                                                                      X
332-460229            NV                                                                                                                           X                                                                                             X                                    $295
332-434760            NV                         X                                                                                                 X                                                                                             X                                    $295
332-465180            NV                                                                                                                                                                                                      X
332-470182            NV                                                                                                                           X                                                                                             X                                    $295
332-436061            NV                                                                                                                                                                                                                                         X
332-474293            NV                                                                                                                                                                                                      X
332-440160            NV                                                                                                                           X                         X                                                                   X                                    $295
332-337561            NV                                                                                                                                                                                                      X
332-365943            NV                         X                        X                                                                                                  X                                                                   X                                    $295
332-432933            NV                                                  X                                                                                                  X                                                                   X                                    $295
332-435346            NV                                                                                                                                                                                                      X
332-452943            NV                                                                                                                                                                                                      X
332-433829            NV                                                                                                                                                                                                      X
332-462350            NV                                                                                                                                                                                                      X
331-118742            NV      X                                                                                                                                                                                                                  X                                    $295
331-123212            NV      X                                                                                                                                                                                                                                  X
331-129366            NV                                                                                                                                                                                                                                         X
331-145660            NV                                                                                                                                                                                                                         X                                    $295
331-124969            NV                                                                                                                                                                                                                                         X
331-126239            NV      X                                                                                                                                                                                                                  X                                    $295




                                                                                                                                                  26
                                                                                                                       Not in broom-swept condition

                                                                                                                                                       Required signs not posted

                                                                                                                                                                                   Not boarded and secured
                                                                                           Inspector did not sign in




                                                                                                                                                                                                                                    Property not winterized
                                                  Debris & other hazards




                                                                                                                                                                                                             Unallowable boarding
                               Landscape issues




                                                                                                                                                                                                                                                              No issues/passed




                                                                                                                                                                                                                                                                                                              Ineligible funds
                                                                           Exposed wires
        Case number




                                                                                                                                                                                                                                                                                 Material fail

                                                                                                                                                                                                                                                                                                 Minor fail
                       State




331-120926            NV       X                                                                                                                       X                                                                                                                         X                                   $295
331-130317            NV                                                                                               X                                                                                                                                                                         X
121-236804            ID                          X                                                                                                                                                                                                                                              X
121-221913            ID                          X                                                                                                                                                                                                                                              X
121-218072            ID                                                                                                                                                                                                                                      X
121-263971            ID                                                                                                                                                                                                                                      X
121-277446            ID                                                   X                                                                                                                                 X                                                                   X                                   $295
121-249347            ID                                                                                                                                                           X                                                                                             X                                   $295
121-236493            ID                                                                                                                                                                                     X                                                                                   X
121-243689            ID                                                                                                                                                                                                                                      X
121-233509            ID                                                                                               X                                                           X                                                                                             X                                   $295
121-234084            ID                                                                                                                                                           X                                                                                             X                                   $295
121-227767            ID       X                                                                                                                                                   X                                                                                             X                                   $295
121-229897            ID                                                                                                                                                           X                                                                                             X                                   $295
121-255640            ID                                                                                                                                                           X                                                                                                             X
121-239238            ID                          X                        X                                           X                                                           X                                                                                             X                                   $295
121-259455            ID                                                                                                                                                                                                                                      X
121-217437            ID                                                                                                                                                                                                                                      X

 Total homes                   16                 13                       7               2                           21                              1                           30                        7                      1                         37                 38              21           $11,210
 Percentage of
 homes failed                  17                 14                       7               2                           22                              1                           31                        7                      1                         39                 40              22




                                                                                                                                                  27
